<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: FAITH-BASED PERSPECTIVES</title>
<body><pre>[Senate Hearing 111-395]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-395

       COMPREHENSIVE IMMIGRATION REFORM: FAITH-BASED PERSPECTIVES

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2009

                               __________

                          Serial No. J-111-56

                               __________

         Printed for the use of the Committee on the Judiciary












                  U.S. GOVERNMENT PRINTING OFFICE
56-073 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                 CHARLES E. SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHARLES E. GRASSLEY, Iowa
RICHARD J. DURBIN, Illinois          JON KYL, Arizona
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AL FRANKEN, Minnesota
               Stephanie Marty, Democratic Chief Counsel
              Matthew L. Johnson, Republican Chief Counsel















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     4
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   152
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     5

                                WITNESS

Anderson, Leith, Senior Pastor, Wooddale Church, Eden Prairie, 
  Maintenance....................................................     8
Gerson, Michael, Senior Research Fellow, Institute for Global 
  Affairs, Washington, D.C.......................................     7
McCarrick, His Eminence Theodore, Cardinal Archbishop Emeritus, 
  Diocese of Washington, Washington, D.C.........................    10
Rodriguez, Reverend Samuel, President, National Hispanic 
  Christian Leadership Conference, Sacramento, California........    12
Tolle, James, Senior Pastor, The Church on the Way, Van Nuys, 
  California.....................................................    13

                         QUESTIONS AND ANSWERS

Responses of Leith Anderson to questions submitted by Senator 
  Sessions.......................................................    20
Responses of Michael Gerson to questions submitted by Senator 
  Sessions.......................................................    29
Responses of His Eminence Theodore McCarrick to questions 
  submitted by Senator Sessions..................................    30
Responses of Reverend Samuel Rodriguez to questions submitted by 
  Senator Sessions...............................................    33
Responses of James Tolle to questions submitted by Senator 
  Sessions.......................................................    34

                       SUBMISSIONS FOR THE RECORD

Anderson, Leith, Senior Pastor, Wooddale Church, Eden Prairie, 
  Maintenance, statement.........................................    41
Anti-Defamation League, Washington, D.C., statement..............    45
Catholic Charities USA, Baltimore, Maryland, statement...........    47
Center for Immigration Studies, Washington, D.C.:
    Catholics, Immigration, and the Common Good, August 2009, 
      article....................................................    51
    A Biblical Perspective on Immigration Policy, September 2009, 
      article....................................................    61
    No `Progress by Pesach', August 2009, article................    73
Foltin, Richard T., Esq., Director, American Jewish Committee, 
  Washington, D.C., statement....................................   101
Friends Committee on National Legislation, Washington, D.C., 
  statement......................................................   106
Gerson, Michael, Senior Research Fellow, Institute for Global 
  Affairs, Washington, D.C., statement...........................   108
Hybels, Lynne and Bill, Willow Creek Community Church, South 
  Barrington, Illinois, statement................................   110
Individual, Local and State Faith Statement......................   115
Interfaith Immigration Coalition, San Francisco, California, 
  statement......................................................   136
Interfaith Platform on Human Immigration Reform, statement.......   138
Lutheran Immigration and Refugee Service, Baltimore, Maryland, 
  statement......................................................   153
McCarrick, His Eminence Theodore, Cardinal Archbishop Emeritus, 
  Diocese of Washington, Washington, D.C., statement.............   155
National Faith Statement, misc. letters..........................   173
National Hispanic Christian Leadership Conference, Sacramento, 
  California, letter.............................................   200
Network, A National Catholic Social Justice Lobby, Washington, 
  D.C., letter...................................................   202
Pelavin, Mark J., Associate Director, Religious Action Center of 
  Reform Judaism, Washington, D.C., statement....................   203
Sisters of Mercy of the Americas, Silver Spring, Maryland, letter   205
Steinlight, Stephen, Center for Immigration Studies, Washington, 
  D.C., letter...................................................   206
Tolle, James, Senior Pastor, The Church on the Way, Van Nuys, 
  California, statement..........................................   212

 
       COMPREHENSIVE IMMIGRATION REFORM: FAITH-BASED PERSPECTIVES

                              ----------                              


                       THURSDAY, OCTOBER 8, 2009

                                        U.S. Senate
                               Subcommittee on Immigration,
                               Refugees and Border Security
                                 Committee on the Judiciary
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:10 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Charles 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Sessions and Cornyn.

 OPENING STATEMENT OF HON. CHARLES SCHUMER, A U.S. SENATOR FROM 
                     THE STATE OF NEW YORK

    Chairman Schumer. The hearing will come to order. I want to 
welcome our guests and my colleagues. We have two more 
witnesses that are on their way from Senator Grassley's office 
right now. So we will begin because time is of the essence for 
everyone.
    Before I begin, I want to extend the good wishes of our 
Chair, Senator Leahy, who I believe was here. Said hello to 
you, Cardinal, and maybe said hello to the other witnesses as 
well. And he has a statement which, without objection we'll 
submit for the record.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Schumer. I am going to be brief to accommodate the 
travel schedules of a few of our witnesses who were generous 
enough to come and have flights to catch and other events to 
attend this afternoon. But I want to welcome all of our 
witnesses.
    For the past few months this Committee has held hearings 
and invited America's foremost immigration experts to discuss 
the most difficult problems that exist in our current 
immigration system and to propose solutions for reform. As a 
result of this process this Committee has seen the many ways in 
which America's immigration system is broken. I think we all 
agree to that. And just about everyone in the country thinks it 
needs fixing, will have different views as to how, but no one 
is happy with the present system.
    More needs to be done, of course, to secure our borders, 
prevent businesses from hiring illegal workers, and track 
people who are in the country to determine whether they are 
here legally or illegally are a few examples. More also must be 
done to encourage the worlds' best and brightest individuals to 
come to the United States and create the new technologies in 
businesses that will employ countless American workers.
    At the same time, it is my belief we must also convert the 
current flow of low-skilled, illegal immigration into a more 
manageable and controlled flow of legal immigrants who can be 
absorbed by our economy.
    The good news is that we have learned through these 
hearings that we possess the technological capability and 
administrative know-how to solve many of these serious 
problems. And the comments of my colleagues in this Committee 
reflect consensus as to how to fix our broken immigration 
system to improve our security, help our economy and remain 
true to America's tradition of welcoming immigrants to our 
shores.
    I have always believed that the American people are both, 
pro-legal immigration and anti-illegal immigration. The 
American people will accept practical legislation that 
authorizes the current population of illegal immigrants to 
obtain legal immigration status, but only if they are convinced 
we are fully committed both resource-wise and politically to 
prevent future waves of illegal immigration. But even though we 
know the problems and actually agree on many of the solutions, 
we have all seen, in the past few months, how the political 
discourse and the public discourse have reflected increasing 
hostility toward immigration in general and immigrants in 
particular regardless of their legal status.
    The tone of this debate has led some to ask whether this is 
indeed the best time to be talking about fixing our broken 
immigration system. And whether at this particular moment 
immigration is simply a third rail which any public official 
broaches at their peril.
    Well, if you ask me, I think this is the right time to deal 
with immigration reform.
    And, today, for the first time, the National Association of 
Evangelicals has made history and officially announced its 
support for immigration reform. The National Association of 
Evangelicals is the leading voice of the American evangelical 
community. It represents 30 million paritioners in over 45,000 
churches from over 40 evangelical denominations. This 
announcement is, in my view, a significant step forward toward 
finally achieving the enactment of much needed immigration 
reform this Congress.
    It is now no longer possible to think of immigration as an 
issue that only matters to the Latino community. As these 
witnesses attest, this issue crosses faith lines, party lines, 
ideological lines. The evangelicals' community support for 
immigration reform is a moral imperative for all people of 
faith, shows that a broad coalition of Americans now believe 
what Pastor Joel Hunter eloquently told this Committee in 
April, quote, ``[T]he urgency for immigration reform cannot be 
overstated because it is so overdue.''
    Just like many Americans turn to their religious leaders 
for guidance on the most important decisions in their lives, 
all of us in this room and in this country can learn a 
tremendous amount by turning to the distinguished witnesses on 
this panel for their unique insight and counsel on how we could 
address this important issue that will affect America's future 
for decades to come.
    For this reason we are asking them to give us their best 
pastoral counseling on how to move forward with immigration 
policy that Americans will embrace and that will finally 
provide the long overdue forums we desperately need.
    These leaders are here to remind all of us that the same 
immigrants who many are so quick to demonize are the very 
people who often most embody the spirit of America. The leaders 
of this panel can tell you that immigrants they have met and 
counseled have a deep and abiding religious faith. They can 
tell you stories about immigrants in their communities who 
demonstrate strong work ethic, entrepreneurship, and commitment 
to individual responsibility. And they have seen first-hand the 
strong family values that exist within immigrant communities 
which serve to reinforce all Americans' commitment to family 
values. These leaders understand that because immigrants are 
first and foremost human beings, made in God's image, many of 
whom came here to feed their families, it's critical that 
civility guides our rhetoric whenever we discuss immigration.
    Any attempt to enact long-needed reforms to our immigration 
system will not succeed unless our friends, neighbors and 
colleagues believe we are not motivated by a desire to destroy 
the fabric of America, but rather to fix a broken system that 
is tragically leading to the creation of broken people, broken 
families, and broken communities.
    So, I am glad to be here. We have several distinguished 
witnesses to counsel us as how to best conduct the ongoing 
immigration debate going forward and how they think we should 
reform the system to fix the problems they encounter on a daily 
basis.
    I look forward with great interest to their testimony. And 
I want to recognize all of the religious groups that have 
submitted statements in support of comprehensive immigration 
reform.
    For the record, I will ask unanimous consent to submit 
these statements and make them part of the record. They include 
the American Jewish Community, the Interfaith Immigration 
Coalition, the Sisters of Mercy of America, the Friends 
Committee on National Legislation, the Network of National 
Catholic Social Justice Lobby, the Union for Reform Judaism, 
the Anti-Defamation League. All of these groups and many others 
have been and will continue to be critical players in any 
discussion regarding immigration reform.
    [The prepared statements appears as a submission for the 
record.]
    Chairman Schumer. I want to especially point out a historic 
statement sent to us by Pastor Bill Hybels of the Willow Creek 
Community Church in Illinois, one of the largest and most 
important evangelical churches in America, who along with his 
wife Lynn Hybels wanted to be here today but could not due to 
missionary work they're conducting in Africa. They indicate as 
follows, quote, ``Bill and I are committed to immigration 
reform and hope it will pass Congress soon. We believe that 
most Americans would be moved to pass comprehensive immigration 
reform if they could see the faces of immigration as we have 
seen them.'' unquote.
    I ask unanimous consent that this statement be added to the 
record as well and recognize Senator Cornyn for an opening 
statement.
    [The prepared statement of Pastor Hybels appears as a 
submission for the record.]

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. If there is a 
group that is in need of pastoral counseling, it is the U.S. 
Congress. I can attest to that.
    But I want to welcome all of the witnesses for being here 
today. Thank you for your insights. I want to acknowledge some 
who, like Senator Schumer said, couldn't be here. For example, 
Reverend Louis Cortez who I met with recently in my office and 
others with Esperanza.
    I want to also acknowledge other important people in the 
faith community who I have had a chance to talk about this 
subject at length with like Archbishop Gomez, Father Elasando, 
and others.
    We know our Nation was founded by immigrants many of whom 
came to this country seeking religious freedom. Four hundred 
years ago the Puritans were persecuted by their government in 
England. They sought a new life where they could practice their 
religion in peace. And, of course, we know their story aboard 
the Mayflower and when they got here one of the first things 
they did was to create the Mayflower Compact, one of the first 
written constitutions in North America.
    The Mayflower Compact established the principle that 
religious freedom and democratic governance go hand in hand. A 
principle later enshrined in our own constitution.
    That first generation of immigrants set a good example, I 
believe. Today the United States of America welcomes immigrants 
from all over the world, respects traditions of many faiths, 
and defends and upholds the rule of law. Today leaders of faith 
communities offer a valuable perspective on their experience 
with the consequences of the current broken system.
    As Senator Schumer knows in 2005 Senator Jon Kyl and I 
introduced, I think, one of the most--one of the first 
comprehensive immigration reform bills in this last decade, 
something we called ``The Comprehensive Border and Security 
Immigration Reform Act of 2005;'' which addressed all 
components of what I think we need to address in dealing with 
this challenging system.
    I remain convinced that Congress needs to act on reform. 
The problem we had the last couple of times we tried to do this 
is I don't think the American people trust us when it comes to 
do some very basic things. For example, to enforce our laws, to 
secure our borders, and the like. I believe if they had greater 
confidence in their Congress and their elected representatives, 
they would recognize the challenging situation we find 
ourselves in with some 12 million non-citizens here who live in 
great fear and threat. The current broken system is bad for 
everyone, but particularly bad for undocumented immigrants who 
are here in this country.
    I think of a young woman who is the victim of domestic 
violence who is afraid to turn to the police because of the 
consequences it might have for her; the worker who works for 
cash from an employer who then denies him his fair wages 
because that employer knows they have no where to turn because 
they don't have the protection of our laws being here in 
violation of our immigration laws; and others who like the 
immigrant who comes into our country in the hands of a coyote 
who cares nothing for their life, but for whom that means 
nothing but a paycheck. All of these individuals are victims of 
our broken immigration system and our need to restore order out 
of chaos and to restore the rule of law and to regain the 
confidence of the American people.
    So I think immigration reform has to secure our borders, 
has to facilitate the legitimate trade in commerce, has to 
enhance our global competitiveness, has to strengthen and 
simplify the employment verification and eligibility rules, it 
has to uphold the rule of law more generally and develop a 
practical and compassionate solution for the current situation 
for those who are here as non-citizens who I described earlier. 
And, ultimately, to restore public confidence that Congress is 
competent and interested, not only in dealing with the problem 
on the front end, but following through and actually see that 
what we pass into law is implemented by appropriate oversight 
and appropriations and the like.
    So we will be looking to each of our witnesses for their 
counsel. But we will also be looking to you for your leadership 
after we have new laws on our books.
    You can help the members of your faith community understand 
what they need to do in order to comply with whatever new laws 
that we put on the books. And you can help them understand what 
services are available to them if they comply with our laws. 
And you can help Congress understand how immigration reform is 
working in your communities and whether we will need to make 
additional changes as I am sure we will over time.
    So at the end of the day, I think we are talking about a 
core responsibility of the Federal government. That is to 
create an immigration system that is lawful, brings order out 
of chaos and protects the most vulnerable in our society.
    Faith communities and other organizations can be helpful 
partners. But I want to say I also think it's not responsible 
of Congress to impose on others, non- governmental 
organizations, the duties that we properly bear as elected 
representatives and officials in the Federal government. 
Accountability for success squarely rests with us here in 
Washington, the elected representatives of the American people.
    So I thank all of you for joining us here today and I look 
forward to your testimony and your answers to our questions.
    And thank you, again, Mr. Chairman, for your leadership on 
having what I think have been a series of productive hearings. 
I look forward to working with you to accomplish our common 
goal.
    Chairman Schumer. Senator Sessions, would you like to make 
an opening statement?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. I think a number 
of our witnesses in their statements that I have had a chance 
to review some, some of them in some depth are correct to say 
that every soul, every individual is a child of God and 
deserves great respect and humane treatment, and that is a 
challenge all of us have. And so I think a lot of the anger 
that is out there should not be interpreted so much as an anger 
against immigrants or anger against certain individuals. But I 
do think a lot of it is directed at us in Congress. Because the 
American people concluded rightly, I believe, last time that we 
were proposing a legalization scheme for people who were here 
illegally and suggestions and promotions that we were 
developing a system that would work in the future was wrong and 
I don't think it would have worked.
    So, gosh, Mr. Chairman, you've said some good things about 
how we have to work, what we are going to have to do. But I am 
not going to be supportive of any plan that is going to, in 
effect, legalize millions of people and then send a signal that 
our borders remain open still and attract even more millions. 
So we are having this problem again. So how we work our way 
through it, I don't know, but it needs to be done in the right 
spirit. And I appreciate each of you for sharing your thoughts.
    Chairman Schumer. Thank you, Senator Sessions. I do agree 
with you that we have to convince Americans that there will not 
be future waves of illegal immigrants in order to succeed with 
the present group that are both here and future people who 
might come.
    Senator Sessions. I agree with you.
    Chairman Schumer. We have a very distinguished panel. I am 
honored, I think we are all honored to have all of you here and 
very much appreciate your caring and your taking the time. That 
is panel will really help us come together on immigration. So 
we appreciate it.
    I am going to give a brief introduction to each of our five 
panelists and then let them proceed. And your entire statements 
will be read into the record fully. And so you may proceed as 
you wish once we finish the introductions.
    First, Michael Gerson is a Senior Research Fellow at the 
Institute for Global Engagement, Center on Faith and 
International Affairs. He is also a Washington Post columnist 
who writes about politics, global health, development in 
religion and foreign policy. I for one enjoy and look forward 
to your columns all the time, even if I don't agree with every 
one of them.
    He served as a policy advisor and chief speech writer to 
President Bush from 2000 to 2006 and has been recognized by 
Time Magazine as one of the 25 most influential evangelicals in 
America.
    Pastor Leith Anderson is President of the National 
Association of Evangelicals which represents the interests of 
the churches of over 30 million--of the churches that over 30 
million Christians attend every Sunday. He is also the senior 
pastor of the Wooddale Church, one of the largest churches in 
Minnesota. He has published many periodicals and has written 
ten books. I admire anyone who has written any book. I wrote 
one and it's very hard to do. So, very impressive as well.
    His Eminence, Cardinal Theodore Edgar McCarrick is a well-
known figure, of course, to many of us. He has served as 
Archbishop of Washington from 2001 to 2006. Now serves as 
Archbishop Emeritus of Washington, D.C. And for the last 40 
years he has been a leading voice in the Roman Catholic Church 
on all of the important issues of our time.
    Cardinal McCarrick recently presided at the funeral of our 
dear colleague, Senator Kennedy, who we all miss tremendously. 
And we know Senator Kennedy would be thrilled to see you here 
today, Cardinal.
    Reverend Samuel Rodriguez is the President of the National 
Hispanic Christian Leadership Conference. An organization that 
represents approximately 15 million Hispanic Christians in 
issues of leadership, fellowship, networking partnerships and 
public policy. He was named by Newsweek Magazine as the 
religious leader to look for in 2008. So we have both Newsweek 
and Time represented here today.
    Pastor James Tolle is the Senior Pastor of The Church on 
the Way in Van Nuys, California. That is one of the largest 
churches in America with over 20,000 members. It has been 
recognized in several publications as one of the most 
influential churches in America, and one of the fastest growing 
churches in America. When you are that big, it is hard to be 
one of the fastest growing. So that is a major accomplishment.
    We are really honored to have all five of you here today. 
As I said, your entire statement will be read into the record. 
And we will just go from left--my left to my right.
    So, Mr. Gerson, you may proceed.

STATEMENT OF MICHAEL GERSON, SENIOR RESEARCH FELLOW, INSTITUTE 
 FOR GLOBAL ENGAGEMENT AND INTERNATIONAL AFFAIRS, WASHINGTON, 
                              D.C.

    Mr. Gerson. Mr. Chairman, Senators, thank you. There is no 
more important difficult task than defining the American 
community and determining how we treat those who wish to join 
it. This work has many economic and national security 
implications. I believe that a relatively open immigration 
system ultimately is good for the economy though it causes 
dislocations that must be addressed.
    I believe that an orderly guest-worker system would make it 
easier to have an orderly border.
    But the debate on immigration is not nearly utilitarian. 
Not just a matter of costs and benefits. It also concerns our 
deepest values as a people; values often informed by faith.
    Concerning one issue in particular those values are 
urgently needed. Sometimes the real passion in the immigration 
debate is not economic, but cultural. A fear that American 
unity and identity are being diluted by Latino immigration.
    Samuel Huntington of Harvard has claimed that Mexican 
migration compromise the quote, ``core of American culture 
identity.'' Which he calls, quote, ``a Protestant society.''
    During the last immigration debate this charge took cruder 
forms with some commentators warning that immigration reform 
would quote, ``erase America.'' And this argument on the 
fringes has sometimes become a cover for raw bigotry. With 
Hispanics called quote, ``leaches'' and ``the world's lowest 
primitives,'' and carries of, quote, ``the fajita flu.''
    On this matter religious people have no choice but to speak 
because these arguments are entirely false, inconsistent with 
the teachings of faith, and destructive to American ideals.
    First, you are forced to speak when your neighbors are 
libeled. It is true that Latinos in some ways are different 
from mainstream culture. Higher percentages attend church 
regularly. Higher percentages of Latin immigrants are married. 
Lower percentages are divorced. These differences hardly 
threaten our unit or identity.
    Every new immigrant group has challenges. But Latinos, 
including illegal immigrants often display values emblematic of 
America, risking much for the sake of economic and political 
freedom. They make our country more, not less American.
    Second, people of faith believe that the image of God is 
universal and uniform. That a passport or a Green Card does not 
confer human worth and dignity. It is a principle that forbids 
dismissive abstractions. No one is an ``illegal.'' They are 
human beings with stories and struggles. Every alien is also a 
neighbor.
    This concern for individual dignity requires the making of 
certain moral distinctions. People of faith affirm the 
importance of the rule of law. But the law is made for human 
beings, not human beings for the law.
    A young woman who dies in that desert during a perilous 
crossing for the dream of living in America is not the moral 
equivalent of a drug dealer. And millions of hardworking, 
religious, family oriented neighbors make unlikely criminals.
    The biblical tradition teaches a positive duty to care for 
the stranger in our midst. Christian ministries provide help to 
anyone, whatever their legal status. Because if righteousness 
were the requirement for mercy, none of us would deserve or 
receive mercy. And it is a great theme of the biblical story 
that God's purposes are often fulfilled through refugees--in 
Egypt, in the wilderness, in Babylon, in the flight from Herod, 
in the temporary troubled kingdoms of this world. These beliefs 
do not translate simplistically into open borders and amnesty. 
They do mean, however, that immigrants should never be used as 
objects of organized anger or singled out for prejudice and 
harm.
    Finally, the argument for national unity based on birth and 
background is inconsistent with the American ideal. An ideal 
informed by a belief in God-given universal rights. The core of 
American identity is not cultural purity. It is social mobility 
and shared principles. This model of unity has done better than 
any other even after the massive forced migration of slavery 
and it is certainly equal to this moment.
    Thank you.
    [The prepared statement of Michael Gerson appears as a 
submission for the record.]

  STATEMENT OF LEITH ANDERSON, SENIOR PASTOR WOODDALE CHURCH, 
                    EDEN PRAIRIE, MINNESOTA

    Mr. Anderson. Thank you, Mr. Chairman, and the Senators for 
the opportunity to speak to you on what is a very important 
topic. And Senator Schumer, you are correct; yes, this is the 
time. This is the time.
    I represent the National Association of Evangelicals which 
has 40 plus denominations and we think about 45,000 churches. 
And we have been through a 2-year process of examining what our 
constituency has to say. And that has led to the approval by 
our leadership today of a resolution in favor of comprehensive 
immigration reform.
    Evangelicals have long been engaged in this process. But 
one of the things we have increasingly discovered is that they 
are us. That is to say, that many of our large denominations 
are growing primarily through immigration and that a 
significant percentage, in some cases a third to a half of 
those that are in evangelical denominations are first-
generation immigrants.
    So our churches have long been open to immigrants. We 
welcome them. We do not ask someone's status in relationship to 
the government for being part of one of our congregations. That 
may sound as if an open borders policy is proposed. That is 
certainly not the case. We are for strong borders and want the 
borders to be regulated and think that is an essential part of 
public order.
    However, we also, as already stated, value immigrants and 
are convinced that they are important to not only the 
evangelical churches here represented, but also to the strength 
of the United States.
    And family values is one of those key elements that there 
are not only strong family values that are coming with those 
who come into our country, but also that our policy give high 
priority to the reunification of families and that that be a 
key element in comprehensive immigration reform. And that 
relates to the issuing of visas under the current law as well 
as any that is proposed.
    Occasionally we are asked questions regarding lawbreaking 
and are reminded of teaching in the New Testament that those 
who are Christians are to be obedient to the law and we 
certainly espouse that. Although that is not an absolute 
principle. And we also recognize that immigration laws have 
changed significantly throughout the history of this country. 
And it is the time to change those laws again.
    One of our agencies is the World Relief Corporation and 
that organization has been strongly active in the relocation of 
immigrants since the Immigration Reform and Control Act of 
1986. And we have been directly engaged through our churches in 
the relocation of 100,000 immigrants into the United States.
    A lot of concerns are typically raised including the issue 
of jobs and whether or not that will displace current workers. 
It is in our opinion something that is different in different 
communities. But in the overall perspective that it is good for 
our economy to have those who come and are willing to work in 
our country.
    For employers there has been, as you well know, significant 
issues that it is difficult for employers to comply with laws 
and therefore those laws need to be changed so the 
responsibility does not rest primarily with them.
    But often it comes down to real people. So I am a pastor of 
a local church in Minneapolis and talked to a woman in our 
community who came to the United States as a refugee. She is 
legally in the United States as is her family. However, when 
her son reaches his 18th birthday it will be necessary for him 
to leave to return to Africa to a country where he does not 
speak the language or know anyone. And it is just an 
illustration of where change is possible.
    So we have a growing commitment to the following in our 
recent resolution: No. 1, that there be fair and humane 
treatment of immigrants; No. 2, that we have strong borders; 
No. 3, that we prioritize family reunification; and No. 4, that 
we provide a reasonable path to legal status and citizenship 
for those who are currently undocumented in the United States.
    Thank you.
    [The prepared statement of Leith Anderson appears as a 
submission for the record.]

    STATEMENT OF HIS EMINENCE THEODORE MCCARRICK, CARDINAL 
   ARCHBISHOP EMERITUS, DIOCESE OF WASHINGTON, WASHINGTON, DC

    Cardinal McCarrick. Thank you, Mr. Chairman. I want to 
thank Chairman Schumer for having this hearing today and for 
his leadership on this very important national issue.
    I would also like to thank Senator John Cornyn for being 
here and Senator Sessions, I think. It's a sign of the 
importance of this very, very key problem that we are facing 
and the hope that we can working all together we can find out 
some solution for it.
    I know that this issue of immigration is important to our 
entire country. I rejoice at the great position taken by the 
National Association of Evangelicals. They are a very important 
group. And the fact that the presentation that Pastor Anderson 
made is extremely important for all of us and a great step 
forward for the whole country.
    Today I am testifying on behalf of the United States 
Conference of Catholic Bishops where I serve as a consultant to 
the U.S. Bishops Committee on Migration. My views, therefore, 
reflect those of my brother bishops across the country.
    As a contributor to this debate, the Catholic Church brings 
institutional knowledge gained by assisting newcomers for over 
200 years in our parishes, social service programs, schools, 
and hospitals. More importantly, we also bring the teachings of 
the gospel, both the Old and the New Testament in which the 
Israelites were told that they too were once aliens in your own 
land and where our Savior told us in Saint Matthew's gospel 
``to welcome the stranger for what you do for the least of my 
brethren you do for me.''
    It is from this unique perspective, Mr. Chairman, and while 
acknowledging its vast complexities, we look at immigration 
through a simple lens. While immigration has social, economic, 
and legal aspects which must be addressed in any reform 
legislation, from the perspective of Catholic teaching 
immigration is ultimately a humanitarian issue. The axis around 
which its other aspects should resolve.
    In our view immigration laws ultimately must be just by how 
they impact the basic dignity and God-given rights to the human 
person.
    Let me outline for you today, Mr. Chairman, very briefly 
what we believe are the elements needed to ensure that any 
immigration reform legislation considered by the Committee 
meets this standard. These recommendations are outlined in more 
detail in my written testimony.
    First, we must bring the undocumented population in this 
country out of the shadows and give them a chance over time to 
achieve permanent residency and citizenship.
    Second, we must preserve family unity by strengthening 
family based immigration which has served our Nation so well 
for decades. Waiting times for families to reunite legally in 
our country must be reduced.
    Third, we must create legal avenues for migration so that 
migrant workers who labor in so many important industries in 
our Nation are able to enter the country legally and in a safe 
and orderly fashion. This would help reduce the high number of 
migrant deaths we see each year on our southern border.
    Fourth, we must give immigrants their day in court 
consistent with American values by restoring due process 
protections removed in 1996 legislation. Asylum seekers and 
refugees should also receive special consideration.
    Finally, we must work with our neighboring countries in the 
international community to address the root causes of 
immigration such as economic inequities so that immigrants and 
their families ultimately can remain in their home countries 
and support their families in dignity. At a minimum, we must 
not as an economic super power pursue international economic 
and trade policies which leave persons in poor countries 
without the means to support their families.
    While these recommendations do not reflect the totality of 
our concerns, they are areas that at a minimum the U.S. Bishops 
believe should be addressed in reform legislation.
    Mr. Chairman, I must also address concerns that many 
Americans, including Catholics, have concerning the rule of law 
and how it applies to immigration. In truth it's the Church's 
position in favor of reform seeks to restore the rule of law 
and provide order and legality to an otherwise chaotic system. 
Our nation requires an immigration system that joins legal 
immigration with our long-term economic needs, the principle of 
family unity and basic human rights. This will help restore the 
rule of law to our immigration system. Now our system 
accomplishes none of these--none of these goals as you yourself 
pointed out a little while ago.
    Our democracy was founded on the premise that unjust and 
unworkable laws should be changed for the common good of all. 
In this vein we call on our elected officials, not to base 
their immigration policies on political views, but to work 
together for a just and lasting solution in the best interest 
of our Nation.
    The Bishops of the United States are hopeful that the 
national debate on immigration will focus on the many 
contributions that immigrants make to our Nation and not 
scapegoat them for unrelated economic or social challenges we 
face.
    I ask the Subcommittee today to help ensure that the coming 
debate refrains from labeling and dehumanizing our brothers and 
sisters which the Chairman mentioned so eloquently earlier. 
While we may disagree on the substance and merits of a 
position, we should never disagree that the conversation should 
remain respectful.
    As our elected officials, it is your opportunity and 
responsibility to lead our Nation toward a humane and just 
economic system--immigration system--which both restores the 
rule of law and respects the inherent human dignity of the 
person created by our creator.
    We know it will be a difficult challenge. It will require 
patience and forbearance. And I tell you today that the 
Catholic Church stands ready to assist in this important and 
historic effort so that together we can help to restore with 
out brothers here and the other churches that are so joined 
vitally with us. We can join to restore America's tradition as 
a nation of immigrants founded on the values of fairness, 
cooperation, and opportunity.
    Thank you very much.
    Chairman Schumer. Thank you.
    [The prepared statement of Cardinal McCarrick appears as a 
submission for the record.]

STATEMENT OF THE REVEREND SAMUEL RODRIGUEZ, PRESIDENT, NATIONAL 
     HISPANIC CHRISTIAN LEADERSHIP CONFERENCE, SACRAMENTO, 
                           CALIFORNIA

    Rev. Rodriguez. Mr. Chairman, Senators, I am honored to be 
here.
    Embedded within the fabric of the American faith community 
lies a clarion call and a prophetic supplication for national 
unity accompanied by an alignment of our core values. Values 
that include both security and compassion, the rule of law in 
welcoming the stranger, mercy and justice.
    The lack of comprehensive immigration reform has created a 
reality where our borders are yet fully secured and the 
immigrant families along with the entire Hispanic/American 
community we find ourselves facing racial profiling, 
discrimination and a hostile, ethnically polarized environment 
not seen since the days prior to the successes of the Civil 
Rights movement. For at the end of the day this is not a 
political issue but rather one of moral and spiritual 
imperative. An issue of justice firmly grounded on biblical 
truth.
    In scripture the number 12 emerges as the foundational 
pillar of the Nation of Israel and as the initial followers of 
Jesus Christ. My prayer is that this Congress remembers another 
12; 12 million people living in the shadows, 12 million hiding 
in fear, 12 million without rights, without a nation, without 
legal covering, 12 million not knowing if today is the day that 
they will be separated from their children, 12 million people 
living in a land without the opportunity of ever experiencing 
the fullness of life, embracing the hope of liberty, or 
pursuing the promise of happiness. Yet, these 12 million people 
carry one commodity. And that commodity is hope.
    Hope that this President and members of this Congress that 
ignited a movement and ushered in change will bring down the 
walls of political expediency and incorporate with an 
immigration reform the bridge to assimilation and a pathway to 
the American dream. Hope that this Congress who stands 
committed to saving the auto industries, our banks, homeowners 
and health care will similarly apply that saving grace and 
spirit to these 12 million souls. Hope and faith that this 
Congress will pass comprehensive immigration reform.
    We are 25,434 churches. We stand committed in framing the 
moral imperative for comprehensive immigration reform by 
reconciling both Leviticus 19, treating the stranger amongst us 
as one of our own, and Romans 13, respecting the rule of law.
    Let us be clear, Hispanic Christians stand committed to 
that message, the message of the cross, one that is both 
vertical and horizontal. And as we deal with immigration 
reform, via the same prism, we humbly encourage Congress to 
finally pass and sign into law legislation that will protect 
our borders, put an end to all illegal immigration. Create a 
market-driven guest worker program, and an avenue that 
facilitates a way by which millions already here that lack the 
legal status can end--can earn such a status in a manner that 
reflects the Judeo-Christian value system this nation was 
founded upon.
    But here is the challenge. Can we reconcile Leviticus 19 
and Romans 13? Can we repudiate xenophobia and nativism 
rhetoric? Can we push back on the extremes both on the right 
and the left and converge around the nexus of the center cross 
where righteousness meets justice and border security meets 
compassion, where common sense meets common ground. The fact of 
the matter is that these immigrants are God-fearing, hard-
working, family-loving children of God who reflect the values 
of our Founding Fathers and embrace the very tenets of the 
American Constitution, the Declaration of Independence, and the 
Bill of Rights.
    Our desire, let me be clear, is for every immigrant in 
America to become a productive citizen. To demonstrate 
proficiency in the English language, to embrace the core values 
of the American idea and realize the American dream.
    Finally, we understand that every day that passes without 
comprehensive immigration reform adds tarnish to the soul of 
our Nation. The question arises, can this Nation be saved? Let 
us save this Nation. Not by providing amnesty, but by providing 
an earned pathway to citizenship. In the name of justice, in 
the name of righteousness, in the name of the Divine, I 
encourage this Congress to pass comprehensive immigration 
reform. By doing so we will protect our borders. We will 
protect all of our families, we will protect our values, and 
then, and only then, can we truly protect the American dream.
    Thank you.
    Chairman Schumer. Thank you.
    [The prepared statement of Rev. Samuel Rodriguez appears as 
a submission for the record.]

STATEMENT OF JAMES TOLLE, SENIOR PASTOR, THE CHURCH ON THE WAY, 
                      VAN NUYS, CALIFORNIA

    Mr. Tolle. Thank you, Mr. Chairman, Mr. Cornyn, thank you, 
Senator--thank you Senator Sessions.
    I am extremely heartened about this meeting and the topic 
of immigration reform. It is one that is important, one of the 
top three or four most important ones that we face as a 
country. For the past five years I have been coming to 
Washington to visit Congressional leaders on this very topic. I 
have visited with the DNC, the RNC. Unfortunately the 
legislation in previous years has never been passed. I hope 
today, I pray today, marks a new beginning.
    And with you, Senator Schumer, I say this is the right 
time. I agree with you that this is the time.
    The consequences of our previous failures are readily 
visible to people like myself who try to treat people as one's 
neighbor. I was instructed by Christ to love my neighbor as 
myself.
    Young Hispanic men and women whom I pastor, some are legal 
and some are illegal. I pastor over 10,000 Hispanics, most of 
them without documentation. I pastor equal amounts of English-
speaking people. These young men and women of undocumented 
status have a paradox. They are caught in a legal paradox. In 
California they can go to institutions of higher learning, but 
once they graduate they cannot get into the legal workforce. 
And so their education cannot be used. They have little place 
to implement their skills, talents, and abilities.
    Fifteen percent of the 12 million that we describe as 
undocumented immigrants, or 1.8 millions, are children who came 
here from their countries of origin with their parents. They 
have no official status. The children in my congregation who 
have grown up of documented workers or residents are pilots and 
school teachers, they are police officers and some of them are 
even working up here on the Hill in Congressional offices. 
Others serve in the military. Some of them are customs agents, 
many of them are athletes and entertainers and small business 
owners. But unfortunately those same groupings of people have 
friends in my own congregation who have also graduated from 
college and cannot participate in our workforce.
    Ten percent of undocumented students out of our high 
schools go on to college whereas 50 percent of the children of 
resident or citizen Hispanics go on to college. That's a big, 
big disparitive.
    So I would suggest that we find a solution so that we can 
improve the lot of these young men and women who have come to 
this country, through no choice of their own, but are caught in 
a paradox.
    Other consequences are obviously visible. There have been 
raids close to my church building of recent date where Hispanic 
citizens have been taken into custody and they have had to wait 
while their documentation has been certified as being true. 
Unfortunately, these legal residents and citizens have had to 
wait while our cherished value of innocent until proven guilty 
was applied to their situation.
    We need immigration reform. Criminals in our community 
continue to exploit and take advantage of the undocumented 
immigrant.
    In seeking comprehensive immigration reform I am motivated 
by the phrase in the Declaration of Independence which states 
that all men are created equal with certain unalienable rights. 
``Unalienable rights'' are those human rights which transcend 
law. We all have them. We have all been given them by God.
    Everyone agrees that a Federal misdemeanor law has been 
broken by an undocumented immigrant. However, the overwhelming 
majority of the undocumented immigrant population in this 
country are law-abiders. They are not criminals as many 
suggest. Their guilt is that of answering the unalienable 
rights, voice embedded deep within their consciousness in much 
the same way as millions of Irish, Italian, or German, or 
Polish, or English immigrants have done all throughout our rich 
history.
    In my opinion, these people are no different than the rest 
of us. They want to obey law. The safety that this immigrant 
seeks in our country, for they seek safety, is proof of their 
true appreciation for law rather than the other way around. In 
my opinion, the rule of law which we wish to be upheld by the 
incoming immigrants has just as equally been violated by 
business owners who have opened wide their arms and used them 
for subpar jobs and substandard wages.
    I offer that the rule of law should not have these glaring 
inconsistencies and contradictions. As a faith leader I have 
responded to the instruction of scripture. My pursuit of 
comprehensive immigration reform comes from Leviticus which 
states, ``the stranger who dwells with you shall be unto you as 
one born among you and you shall love him as yourself.'' The 
Prophet Malachi further admonishes, ``every believer to not 
turn away the alien.'' Jesus' instructions were, ``to invite 
the stranger to come in.'' Jesus ultimately adds his 
confirmation to that of Isaiah's when he said, ``make sure that 
you proclaim liberty to all.''
    Thank you.
    Chairman Schumer. I want to thank every one of you.
    This was powerful testimony. I hope that my colleagues will 
either read it, or better, see it as these are recorded, at 
least internally here. And I thank all of you for caring so 
much and for eloquent words that combine both our religious and 
our secular culture and unity as Americans. So thank you.
    I have a few questions that everyone can answer, and then a 
few for different individuals.
    First, to each of the panelists, because you each 
represent, maybe not Mr. Gerson, he represents the people at 
his institute, but to the other four, maybe he doesn't even 
represent everyone at his institute. But to the other four, how 
many of your colleagues would you say agree with your views on 
immigration? Do you know of specific leaders who are not here 
today who would like to be. And let's start with Pastor 
Anderson.
    Mr. Anderson. We actually had a vote today of the 
leadership of the National Association of Evangelicals and on 
this resolution there was no dissent.
    Chairman Schumer. Wow. How many people voted?
    Mr. Anderson. I think on the board there are about 75.
    Chairman Schumer. Wow.
    Mr. Anderson. But these represent the heads of 
denominations. The endorsements here are the Assemblies of God 
and the Church of the Nazarene and denominations that are the 
main center of evangelicalism in America.
    Chairman Schumer. Thank you, Pastor. Cardinal.
    Cardinal McCarrick. My testimony was the testimony prepared 
and supported by the United States Conference of Catholic 
Bishops. So there are 300 active bishops and about 120 of us 
retired, old geezers, but the position has been----
    Chairman Schumer. Neither word is true in your case.
    Cardinal McCarrick. You are very kind. The position has 
been clear in the last few years and I would say there is a 
unanimous acceptance of our enthusiastic support for what you 
are trying to do, sir.
    Chairman Schumer. Thank you. Reverend.
    Rev. Rodriguez. My statement comes with the full 
endorsement of the Hispanic National Association of 
Evangelicals in our 25,000 plus churches.
    Chairman Schumer. And Pastor Tolle.
    Mr. Tolle. Senator, I don't sit here in any official 
capacity today. But I have been in charge of all the Hispanic 
churches in America for our denomination and they obviously 
would endorse this fully.
    I have also been a past director of Fourscore Missions with 
over 50,000 churches. I would just venture a guess that 75 
percent would stand fully in support of comprehensive 
immigration reform.
    Chairman Schumer. And let me ask each of you this, do you 
think there are some religious leaders who do not speak out in 
favor of immigration reform particularly to their congregants 
for fear of reprisal from the congregation or fear of disfavor 
or anything like that? Tell me what you think. Anybody. 
Reverend.
    Rev. Rodriguez. Absolutely. There's a disconnect between 
the pulpit and the pews, particularly in non-ethnic 
congregations. That's why today's resolution by the National 
Association of Evangelicals is historic. This is no longer a 
Latino thing or a Hispanic church issue, now it's the 
collective evangelical community saying, we're in favor of 
comprehensive immigration reform.
    Chairman Schumer. Pastor Anderson.
    Mr. Anderson. Well, yes, of course there are people that 
disagree and I don't know what their numbers would be. And 
there are pastors who would be reluctant to speak to this. Not 
so much over the moral issue, actually, rather avoiding the 
politicization of the issue and that's where the fear is, not a 
fear of their constituency.
    Chairman Schumer. Right. Okay. Let me ask you this, some 
religious leaders--well, you answered most of the questions 
that I have which is very, very good. Maybe for any of you, I 
have this for Pastor Anderson, but it could go for anyone. 
There are those who say that the scriptures written in a very 
different historical time cannot inform U.S. immigration policy 
in the 21st century. What do you think of that view? Cardinal.
    Cardinal McCarrick. Well, I think the scriptures are 
written for all times because they're written for human beings. 
They are--they are based on the inherent dignity of the human 
person. That doesn't change no matter what modernity comes into 
life. And basically, I think all oppositions are based on the 
fact that we are dealing with our brothers and sisters. We are 
one human family and we have to take care of each other. That's 
where we're all coming from, sir.
    Chairman Schumer. Anyone else?
    Mr. Tolle. I believe that the scriptures teach us how to 
morally live and this is an issue of morality. And I think that 
that's an opportunistic interpretation of scripture, sir.
    Chairman Schumer. Right. Let me ask you this question, 
because, again, we have the issue which I think a few of you 
mentioned of amnesty. And so I hear people who come up to me, 
as somebody who has been active in this area, and say, Senator 
Schumer, I would not mind if we legalize the people who are 
currently illegal or provide a path to citizenship. I just want 
people to admit that they know they did something that was 
wrong, and get right with the law by paying their debt to 
society, working, paying taxes, and then, of course, get a 
Green Card and become a citizen. I've heard this enough times. 
It's had an effect on my thinking. Do you think that more 
Americans would embrace the cause of immigration reform if they 
knew that there would be some recognition of wrongdoing on the 
part of the immigrant as part of the legalization process?
    Mr. Tolle. I have found that most immigrants readily 
recognize that violation. What I have found is in the 
politicizing of this, is that people want to make one guilt 
bigger than other guilts and make this into something that is 
extremely larger in its payment to society; larger than the 
infraction is. I do believe that we do need to maintain 
security in our borders to stem the flow of massive amounts of 
entry of people so that we can maintain a balanced economy. 
There are many things that we need to address. However, I don't 
think that we have a situation where there is anything, but 
maybe political situation in nature.
    Chairman Schumer. Thanks, Pastor. Now they've just called a 
vote, so we have about 15 or 20 minutes to vote. I think we 
could give every member a first round of five minutes and then 
either come back or we could submit questions in writing. So I 
know some of our guests have places to go. So I think that the 
second way would be the best way to do it.
    So let me call on Senator Cornyn. And for a rare time I 
obeyed the 5-minute rule. So I will ask everybody else to do it 
too.
    Senator Cornyn. I think this is a fascinating discussion. 
It's kind of--I was fascinated, I think, Pastor Anderson, by I 
think you said that Christians are instructed to be obedient to 
the law and in Romans 13, submit to authorities. I happen to be 
a Christian. That's an article of my faith as well.
    I guess the question I would have is, many of the 
violations of our immigration laws have put immigrants in a 
terrible situation. I recounted some of those earlier where 
many immigrants find themselves victims of serial criminal 
activities because of their initial error in entering the 
country illegally. So certainly you are not saying that the 
laws--that the immigration laws are unimportant when you say 
it's not an absolute principle? Could you explain that?
    Mr. Anderson. Yes, I would say that we have to be cautious 
in saying that all laws should always be obeyed because we know 
that there are countries where there are unjust laws. So, it's 
not absolute in that regard. And there are thresholds here. So 
Senator Schumer just admitted that he goes over the 5 minutes.
    [Laughter.]
    Mr. Anderson. And I would like to see him admit to the 
guilt before we move on, you know, to the next testimony.
    [Laughter.]
    Mr. Anderson. But that's a low threshold infraction. And I 
think that--I am not saying it is unimportant. It is extremely 
important. And to tie your question to what Senator Schumer 
said earlier, there are people who have knowingly broken the 
law, but there are people who came across our borders who were 
3 weeks old who did not knowingly break the law. So it's just 
difficult to give a comprehensive answer to what seems like a 
simple question. But it really isn't that simple.
    Senator Cornyn. Well, I don't think it's that simple 
either. And I've heard some suggest--we've heard the citation 
of Leviticus, taking the stranger, and as if violating our 
immigration laws was somehow not important. But all of you 
would agree it's important for everyone, to the extent of their 
ability, to comply with our laws; correct?
    Mr. Anderson. I would say it is very important and we need 
to provide means for people to rectify the infringement that 
they have committed.
    Senator Cornyn. Right.
    Mr. Anderson. But they need to be reasonable in fair ways 
of rectifying that.
    Senator Cornyn. Fair enough. Many immigrants who illegally 
enter the country also employ identity theft and document fraud 
claiming the Social Security numbers of others so they can get 
employment. And there are other sort of variations on that 
theme of people who commit other crimes while they're here 
illegally in the country. And those who have had their day in 
court and are subject to final removal orders, but who then go 
underground and never leave, never comply with that lawful 
order of the court.
    And then there are those who after they have left the 
country and been deported by immigration authorities reenter on 
a serial basis. And we know, unfortunately, that there are 
illegal immigrants, like American citizens who are born here 
who commit serious driving offenses, drunk driving offenses, 
sexual offenses, and the like. And just so I understand, if I 
understand what you are saying, please, I am not putting words 
in your mouth, you're saying that the punishment ought to match 
the crime and the crime that we were talking about initially at 
least is illegal entry into the United States or entering 
legally and then overstaying a visa. You are not suggesting 
that any of these other sort of more serious crimes ought to be 
treated on the same basis as a visa overstay or entering the 
country without a visa?
    Mr. Anderson. No, absolutely not. You know, I am saying 
that there are different thresholds and that we need to be 
reasonable and fair on what those thresholds are.
    However, when it's egregious breaking of the law, when it's 
the commission of a felony, then that needs to be--the law 
needs to be heavy-handed in dealing with that type of 
infraction.
    Senator Cornyn. I appreciate your comment and I am going to 
ask--Mr. Gerson, I'm going to ask you a question. Unfortunately 
our time is so constrained here. I hope we can do more of this 
over time and not just be limited to here.
    My questions are really trying to shine a little light on 
the fact that there is no sort of one situation. This is a 
complex situation. But I would like to ask you about what you 
said about the importance of a guest-worker program, Mr. 
Gerson. I believe, Reverend Rodriguez, you mentioned as an 
important component to you of a comprehensive bill.
    Mr. Gerson. Related to the earlier discussion, I think laws 
that forbid basic human aspirations get generally violated. I 
think laws that violate basic economic principles get generally 
violated. We do have a major problem with illegal immigration. 
And there are implications to that for the rule of law and 
security and a lot of other things. But it exists because there 
is a market demand for a certain type of labor in the United 
States.
    Unless you have a system, a legal system, that approximates 
and meets some element of that demand, you are going to have a 
generally ignored system. And that, I think, is the importance 
of a guest-worker system; to allow people to come who don't 
want to come here permanently, but want to come and contribute 
in ways that are important to the American economy and return.
    I actually believe related to the earlier question that 
it's also--combining that with a difficult but genuine and 
realistic path to citizenship is really the only way to 
determine who is in our country. It's the best way to 
determine--you know, to control our borders is to make sure 
that we have a regular way to meet a labor demand that's a 
genuine demand that nobody can deny. And also to accommodate 
the aspirations of people that want to become American 
citizens.
    Senator Cornyn. I know my time is expired, Mr. Chairman.
    Senator Sessions. We don't want to miss this vote, that's 
what they pay us to do here.
    Well, Mr. Gerson, you know, we've got a growing 
unemployment rate that may hit 10 percent. And if I had a 
criticism of a man you and I both admire, President Bush, who I 
think is a fabulous person, his phrase, well, basically he was 
heard to say to the world, ``as long as there is a willing 
worker and a willing employer, we're happy.'' That was never a 
legitimate leadership statement in my view. I think it 
undermined--it sent a message that made people believe if they 
could succeed in entering our country illegally, 1 day we're 
going to--we don't care really, and sooner or later we'll just 
make you legal. And so the deal about comprehensive immigration 
reform is no little matter. What we are talking about is 
policy. What government policy----
    Chairman Schumer. Senator, could we come back on that? I 
know----
    Senator Sessions. Well, I would just--thank you, Mr. 
Chairman, we should go vote. And thank all of you for coming. I 
do have something. I'm not sure I'll get back, but I have read 
almost all of your statements and it is something that I am 
going to try to internalize as we go forward with this debate 
and make sure that we don't cross the line in unfairly dealing 
with people who are here illegally, but who are children of God 
and who deserve respect and compassion by all of us.
    Thank you, Mr. Chairman.
    Chairman Schumer. Well, I think that's an appropriate way 
to end. I want to thank our witnesses. This is going to have 
real effect. And I know that many of you went out of your way 
to be here. I wish we had more time, but we have the vote, and 
I know people have to catch airplanes. So I thank you for being 
here. And your words will mean a lot, not only to the three of 
us, I think, but to all of our colleagues.
    The hearing is adjourned.
    [Whereupon, at 4:14 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submission for the record 
follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
